UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

      OFFICE OF INSPECTOR GENERAL

                 FOR THE

   MILLENNIUM CHALLENGE CORPORATION

          SEMIANNUAL REPORT

           TO THE CONGRESS





      April 1, 2007 - September 30, 2007

Mission

The mission of Office of Inspector General (OIG) is to contribute to and support integrity,
efficiency, and effectiveness in all activities of the organizations for which it has oversight
responsibilities.

Values
In accomplishing our mission, OIG is committed to the following:

  • Integrity

  • Excellence

  • Teamwork

Strategic Goals

  • Reduce vulnerabilities in high-risk MCC programs

  • Increase effectiveness of MCC programs in addressing strategic goals and priorities

  • Help to ensure operational integrity in MCC management systems programs
CONTENTS

Message from the Inspector General ................................................................................................v


Executive Summary ..............................................................................................................................1


Summary of Results .............................................................................................................................3


           Strategic Goal 1: Reduce vulnerabilities in high-risk Millennium

           Challenge Corporation programs ..........................................................................................3


           Strategic Goal 2: Increase effectiveness of Millennium Challenge

           Corporation programs in addressing strategic goals and priorities ..................................7


           Strategic Goal 3: Help to ensure operational integrity in Millennium

           Challenge Corporation management systems programs ...................................................9


Appendices - Reporting Requirements ...........................................................................................11





                                                                                                SEMIANNUAL REPORT TO THE CONGRESS                    iii
MESSAGE FROM THE
INSPECTOR GENERAL
T      his Semiannual Report to the Congress (SARC)
       presents information about the work of
       the United States Agency for International
Development, Office of Inspector General (USAID/
OIG) in providing oversight for the Millennium
                                                        Significant OIG activity and achievements in support
                                                        of these goals is described in this report, and
                                                        comprehensive statistics and data regarding our efforts
                                                        are also included.

Challenge Corporation (MCC) during the six-month        OIG continues to use a collaborative, proactive, and
period ending on September 30, 2007. It is issued in    results-oriented approach in support of the integrity,
accordance with the requirements of the Inspector       efficiency, and effectiveness of MCC programs and
General Act of 1978, as amended, and specifically       operations.
addresses OIG responsibilities for MCC.
The work reported was planned and executed in support
of OIG’s three strategic goals for MCC:
    • 	 Reduce vulnerabilities in high-risk MCC
        programs
    • 	 Increase effectiveness of MCC programs in
        addressing strategic goals and priorities
    • 	 Help to ensure operational integrity in MCC
        management systems programs




                                                                  Donald A. Gambatesa

                                                                  Inspector General





                                                                        SEMIANNUAL REPORT TO THE CONGRESS         v
EXECUTIVE SUMMARY

T       his SARC presents information about the work
        of the United States Agency for International
        Development (USAID), Office of Inspector
General (OIG) in providing oversight for the
Millennium Challenge Corporation (MCC) during the 6­
                                                            Strategic Goal 2: Increase effectiveness of
                                                            programs in addressing strategic goals and
                                                            priorities
                                                               • 	 MCC’s management of Conditions Precedent
month period ending on September 30, 2007. It is issued            (CP) practices were sound; and
in accordance with the requirements of the Inspector           • 	 Three process improvements were identified
General Act of 1978, as amended, and specifically                  and recommended for MCC's management of
addresses our responsibilities for MCC.                            CP.
The work reported was planned and executed in support       Strategic Goal 3: Help to ensure operational
of OIG’s three strategic goals for MCC as described         integrity in management systems programs
below along with significant findings and actions related
to each goal.                                                  • 	 MCC's information security program does
                                                                   not meet all Federal Information Security
Strategic Goal 1: Reduce vulnerabilities in high-                  Management Act of 2002 (FISMA)
risk programs                                                      requirements and recommendations to remedy
    • 	 A Fund Accountability Statement (FAS) audit                the deficiencies were provided by OIG; and
        found nonmaterial weaknesses and instances             • 	 A follow-up audit of MCC’s process for
        of noncompliance at Millennium Challenge                   managing audit recommendation closure was
        Georgia Fund (MCG);                                        found to be sound.
    • 	 A FAS audit found material weaknesses and
        instances of noncompliance at MCA-Honduras;
    • 	 A FAS audit found many improvements in
        accountability at MCA-Madagascar;
    • 	 Nineteen overseas audit firms were
        determined qualified to perform FAS audits;
        and
    • 	 Information briefings to increase fraud
        awareness and understanding of audit
        requirements were conducted for 129 attendees.




                                                                         SEMIANNUAL REPORT TO THE CONGRESS      1
SUMMARY OF RESULTS

   Strategic Goal 1:
   Reduce vulnerabilities in high-risk programs



A        s MCC increases the pace of its program
         implementation, OIG is revising its approach
         to meet the changing needs of MCC. OIG is
increasing oversight and assessments of field operations
to address the high risk that new and innovative
                                                                          FAS Audit Activity
                                                                          OIG performs technical oversight of the audits of the
                                                                          accountable entities’ fund statements. These audits,
                                                                          called FAS audits, are performed by independent
programs present. MCC is unlike other foreign aid                         auditors contracted by the recipient countries. OIG
efforts of the U.S. Government in that it operates as an                  works with the auditors during the audit process
independent U.S. Government corporation that works                        to ensure that significant findings are reported as
only with countries that have already shown that they                     recommendations. For the period ending December
perform better than their peers on the policies that                      31, 2006, FAS audits were issued for Benin, Georgia,
support growth and poverty reduction. As a result, OIG                    Honduras, Nicaragua, and Madagascar. In addition,
defines MCC’s high-risk programs as the Compact,1                         significant work continued with FAS audits in Cape
Threshold,2 and 609(g)3 programs because they are                         Verde, Ghana, Armenia, and Vanuatu.
field operations that are evolving quickly, in foreign
                                                                          Qualification of Audit Firms
environments, and are disbursing funds under the
direction of local recipient organizations that have little               As part of its quality assurance program, OIG identifies
or no experience managing funds in compliance with                        and approves overseas audit firms that are qualified
U.S. Government standards.                                                to perform financial audits. Qualification requires
                                                                          compliance with elements of professional auditing
OIG’s specific activities during this reporting period
                                                                          standards. In all cases, OIG staff travel to the country
concerned three areas:
                                                                          to conduct the assessments. In addition, OIG reviews
    • 	 Overseeing the Millennium Challenge Account                       the statements of work and resulting audit work
        (MCA) audit process, including the FAS audits                     performed under these contracts. These audits review
        contracted for by the accountable entities                        the entity’s FAS, internal controls, and compliance with
        implementing MCC compacts;                                        material provisions, and OIG issues the audit with
                                                                          recommendations to MCC for overseeing the resolution
    • 	 Auditing the Madagascar Compact program; and                      of identified weaknesses and questioned costs.
    • 	 Providing OIG informational briefings.                            During this period, OIG traveled to Lesotho,
                                                                          Mozambique, Namibia, and Tanzania and qualified 19
                                                                          audit firms, bringing the total number of firms qualified
                                                                          to perform FAS audits to 41. OIG continues to build



1.	 A Compact is a multi-year agreement between the MCC and an eligible country to fund specific programs targeted at reducing poverty and
    stimulating economic growth.
2.	 The Threshold Program is designed to assist countries that are on the “threshold,” meaning they have not yet qualified for MCA Compact
    funding, but have demonstrated a significant commitment to improve their performance on the eligibility criteria for MCA Compact funding.
3.	 The Millennium Challenge Act of 2003, Section 609 (g) authorizes assistance for the purpose of facilitating the development and implementa­
    tion of a Compact between the United States and the recipient country.A country may receive both a Compact and additional funding under
    the “Compact Assistance -609 (g) program.”



                                                                                              SEMIANNUAL REPORT TO THE CONGRESS                   3
    relationships with organizations that have experience       Honduras
    or interest in international auditing of development
    projects.                                                   During this reporting period, OIG issued the second
                                                                FAS audit for Honduras. The audit found material
    Georgia                                                     weaknesses in the internal control structure and
                                                                instances of noncompliance with rules, regulations, and
    During this reporting period, OIG issued the second         laws. However, MCA-Honduras did take final action
    FAS audit for Georgia. The audit found nonmaterial          on 6 of the 10 internal control findings prior to report
    weaknesses in the internal control structure and            issuance.
    instances of noncompliance with rules, regulations,
    and laws. MCG took final action on all but one of the       The audit was contracted by MCA-Honduras and
    findings from the previous period.                          covered incurred costs totaling $3,247,978 for the period
                                                                from July 1 to December 31, 2006, under the 4-year
    The audit was contracted by the MCG and covered             compact of approximately $215 million. The purpose
    incurred costs totaling $4,026,798 for the period           of the compact is to reduce poverty and stimulate
    from July 1 to December 31, 2006, under the 5-year          economic growth with projects in rural development and
    compact of approximately $295.3 million. The purpose        transportation sector support. No questioned costs were
    of the compact is to reduce poverty and stimulate           identified, and the accountability statement presented
    economic growth by focusing on the areas of regional        fairly and in all material respects the program revenues
    infrastructure rehabilitation and enterprise development.   and costs incurred for the period audited.
    No questioned costs were identified, and the
                                                                OIG recommended that MCC request and verify
    accountability statement presented fairly and in all
                                                                that MCA-Honduras (1) corrects the internal control
    material respects the program revenues and costs
                                                                deficiencies and (2) corrects the material instances of
    incurred for the period audited.
                                                                noncompliance identified.
    OIG recommended that MCC request and verify that
                                                                (Audit Report No. M-000-07-008-N, September 10, 2007)
    MCG correct the internal control deficiencies identified.
    (Audit Report No. M-000-07-009-N, September 27, 2007)       Madagascar
                                                                During this reporting period, OIG issued the second
                                                                FAS audit for Madagascar. The results show many
                                                                improvements in accountability since the last audit
                                                                report.




                                                                                      Photograph of onion
                                                                                      farmers supported
                                                                                      by MCA-Madagascar
                                                                                      Agricultural Business
                                                                                      Center (ABC) in Antsirabe,
                                                                                      Madagascar. An ABC
                                                                                      contractor is teaching
                                                                                      farmers how to use
                                                                                      fertilizers, pesticides, and
                                                                                      other techniques to ensure
                                                                                      that the onions meet the
                                                                                      European Union’s produce
                                                                                      standards.




4    SEMIANNUAL REPORT TO THE CONGRESS
             Photograph of farmers
             supported by the MCA-
             Madagascar Agricultural
             Business Center in
             Vatomandry, Madagascar.
             The farmers refined litchi
             to produce essential oils.




The audit of the FAS for Madagascar found that MCA-          Based on its review of the audit report, OIG made two
Madagascar corrected all internal control and compliance     recommendations: that MCC (1) make a management
findings and recommendations listed in the report            decision regarding the allowability of the $10,702 in
of December 21, 2006 (M-000-07-001-N) with the               ineligible questioned costs and (2) request and verify that
exception of the internal control item addressing the use    MCA-Madagascar correct a compliance deficiency.
of software to produce the financial statements.
However, like the audit from the prior period, the audit     Preventive Outreach
issued this period found that certain disbursements of       Preventing fraud through education and training is
the accountable entity were questionable (i.e., questioned   a high priority for OIG. As MCC programs expand
costs).                                                      operations and expend more funds overseas, OIG will
The audit was contracted by MCA-Madagascar and               increase fraud prevention efforts. OIG’s early briefings
covered incurred costs totaling $5,401,214 for the           are provided in connection with qualifying audit firms
period from July 1 to December 31, 2006, under the           in recipient countries. For example, fraud awareness
4-year compact of approximately $110 million. The            training given to employees, contractors, grantees, and
Government of the Republic of Madagascar established         others alerts them to fraudulent practices and schemes
MCA-Madagascar to implement and manage the                   and advises them on how to report fraud. When
compact. The purpose of the compact is to reduce             requested, the training is tailored to specific groups.
poverty and stimulate economic growth in Madagascar
by focusing on three areas: property rights, the financial   Furthermore, investigations resulting in criminal
sector, and agricultural business investment.                and/or civil prosecution are publicized on USAID’s
                                                             internet site and in other publications to call attention
The auditors reported that, except for ineligible            to prosecutorial action taken against individuals or
questioned costs of $10,702, the fund accountability         organizations whose illegal activities have targeted MCC
statement presented fairly and in all material respects      programs. OIG hotline posters, flyers, and cards have
the program revenues and costs incurred for the period       been distributed worldwide. In an effort to expand
audited. In addition, the auditors identified an instance    OIG’s outreach efforts, the materials are produced in
of noncompliance pertaining to the costs of workshops        English, Spanish, French, and Arabic.
associated with activities not provided for in the compact
budget or clauses.




                                                                             SEMIANNUAL REPORT TO THE CONGRESS             5
    Recipient Contracted Audit Briefings are an essential      provided under compacts. These briefings are conducted
    component of OIG’s outreach program in the field.          in each country that receives compacts and are part
    These briefings serve to educate and train potential       of the process OIG uses to identify firms as potential
    audit firms, local government officials, and others in     contractors for MCA audit business opportunities.
    the U.S. Government standards for auditing monies


        FRAUD AWARENESS (FA) AND RECIPIENT CONTRACTED AUDIT (RCA) BRIEFINGS

                              AS OF SEPTEMBER 30, 2007


      Month              Location              Sessions      Attendees              Professional Affiliation

       APR                                               NOTHING TO REPORT
       MAY                                               NOTHING TO REPORT
       JUN                                               NOTHING TO REPORT
       JUL         Washington, DC                   1           35           MCC Ethics Training (FA)
                   Maputo, Mozambique               1           15           Local Accounting Firms (FA, RCA)
                                                                             MCC Personnel (FA, RCA)
                                                                             MCA-Mozambique Personnel (FA, RCA)
                                                                             Ministry of Finance Personnel (FA, RCA)

                   Dar es Salaam,Tanzania           1           15           Local Accounting Firms (FA, RCA)
                                                                             MCC Personnel (FA, RCA)
                                                                             MCA-Tanzania Personnel (FA, RCA)
                                                                             Ministry of Finance Personnel (FA, RCA)
       AUG         Washington, DC                   1           34           MCC Personnel (FA)

                   Maseru, Lesotho                  1           15           Local Accounting Firms (RCA)
                                                                             Auditor General Office (RCA)
                                                                             Interim Director of MCA-Lesotho (RCA)
                                                                             Professional Accounting Licensing Body (RCA)
                                                                             U.S. Department of State’s Deputy Chief of
                                                                               Mission (RCA)

                   Windhoek, Namibia                1           15           Local Accounting Firms (RCA)
                                                                             Auditor General Office (RCA)
                                                                             Interim Director of MCA-Lesotho (RCA)
                                                                             Professional Accounting Licensing Body (RCA)
                                                                             USAID Assistant Mission Director and
                                                                               Financial Analyst (RCA)
       SEP                                               NOTHING TO REPORT
                           TOTAL                    6           129




6    SEMIANNUAL REPORT TO THE CONGRESS
         Strategic Goal 2:
         Increase effectiveness of programs in addressing MCC’s strategic goals and
         priorities



M           CC is attempting to provide foreign aid
            targeted toward economic growth through
            large grants to projects where the recipient
has the major responsibility for project implementation.
MCC has set the following four goals to direct its
                                                                          made to compact countries. This audit was designed to
                                                                          have a broad scope and included compact agreement
                                                                          management in Armenia, Cape Verde, Georgia,
                                                                          Honduras, Madagascar, and Nicaragua.

activities:                                                               The audit concluded that MCC had a process in place
                                                                          to provide reasonable assurance that all CPs were
     •     T
           	 ransformative development;                                   successfully met and properly implemented before the
                                                                          compact was entered into force and before initial and
     • 	 Support of good policy;                                          subsequent funding.
     • 	 Improvement of MCC operational 
                                 The audit identified three improvement areas for MCC’s
         effectiveness; and
                                              CP process and provided recommendations to address
     • 	 MCC capability building.                                         them as follows:

OIG’s support of MCC’s goals is evident in all of OIG’s                        • 	 MCC needs to develop a more formalized and
work related to MCC compacts, its chief assistance                                 consistent approach to guide compact countries
instrument. Recent OIG audits focused on the CPs of                                in revising and reporting on CPs.
MCC’s compact management. Reviews were conducted                                    -	   Recommendation: Develop and issue
across several countries. OIG’s recommendations                                          specific guidelines that describe how CPs
identified areas to improve operational effectiveness and                                will be established, defined, revised, and
strengthen delivery mechanisms.                                                          reported.
Audit of the MCC’s Management of Its CPs in                                    • 	 MCC’s clearance timeframes for approval of
Its Compact Agreements                                                             country requests, which include the CP report,
                                                                                   could be clarified.
MCC requires that the compact country meet a series of
CPs before a compact is entered into force4 and before                              -	   Recommendation: Issue guidance that
funds are disbursed for compact implementation. CPs                                      describes the clearance timeframe for
are established in conjunction with the compact country                                  approving country requests and related
by MCC’s legal and sector experts during compact                                         documents, such as the CP Report.
negotiations and are outlined in the compact and related                       • 	 Additional documentation is needed to justify a
disbursement agreements. The purpose of a CP is to                                 procurement action.
ensure that (1) the compact countries establish certain
legal, budgetary, and program actions and (2) the various                           -	   Recommendation: Develop and issue
programs being funded by MCC are implemented and                                         a policy requiring written justifications
carried out with proper controls.                                                        for deviations from the guidelines when
                                                                                         rejecting all bids and when using single-
OIG conducted the audit to determine whether                                             source selection.
MCC ensured that all required CPs were met before
compacts went into effect and disbursements were




4. According to MCC officials, entry-into-force is the point at which a binding commitment is recognized and the compact funds are obligated.



                                                                                             SEMIANNUAL REPORT TO THE CONGRESS                  7
    MCC agreed with the recommendations and explained
    its plan for implementing the recommendations, and
    OIG considers that a management decision had been
    reached on the recommendations.
    (Audit Report No. M-000-07-002-P, July 26, 2007)




8   SEMIANNUAL REPORT TO THE CONGRESS
     Strategic Goal 3:
     Help to ensure operational integrity in management systems programs



C        ongressional legislation and Office of
         Management and Budget (OMB) regulation
         require certain audits be performed to help
resolve high-risk governmentwide problems and ensure
operational integrity in systems and operations. During
                                                          To carry out its mission, MCC’s operations include a
                                                          contracting function at its headquarters in Washington,
                                                          DC, which was the subject of the prior audit conducted
                                                          by OIG. The prior audit found that MCC had complied
                                                          with certain requirements of the Federal Acquisition
this reporting period, OIG conducted a FISMA audit,       Regulation (FAR) but identified areas for further
as well as an audit to determine MCC’s effectiveness in   improvements, including affirming the applicability of
responding to audit recommendations.                      FAR to MCC procurements, establishing requirements
                                                          for the use of sole-source procurements, and developing
OIG also performed substantial work on audits required    a program for small business procurements.
by the Government Management Results Act.
                                                          The follow-up audit concluded that MCC’s process for
Audit of the Millennium Challenge                         managing audit recommendation closure was sound.
Corporation’s Compliance with the Provisions              MCC took appropriate actions to justify closure on all
of the Federal Information Security                       nine recommendations in the Audit of the Millennium
Management Act of 2002 for Fiscal Year 2007               Challenge Corporations Contract Award Process.
An audit was conducted to determine if MCC’s              (Audit Report No. M-000-07-003-P, September 6, 2007)
information security program meets FISMA
requirements for an agencywide information security       Audit of MCC’s Consolidated Financial
program that protects MCC’s information and assets.       Statements, Internal Controls, and Compliance
                                                          for the Period Ending September 30, 2007
OIG found that MCC’s information security program
does not meet all the FISMA requirements, and OIG         During this reporting period, OIG initiated the contract
made 3 recommendations to address the deficiencies.       for the financial statement audit. Auditors have reviewed
MCC’s action in response to these recommendations will    MCC’s automated accounting systems, and internal
be reviewed in the FISMA audit for fiscal year 2008.      control and payroll testing was completed. The audit
                                                          report is expected to be issued in mid-November 2007.
(Audit Report M-000-07-004-P, September 28, 2007)

Follow-up Audit of the Millennium Challenge
Corporation’s Contract Award Process
In accordance with OMB Circular A-50, follow-up
audits assess whether management’s response to audit
recommendations was effective in correcting identified
problems to ensure that audit recommendations lead to
results. This follow-up audit looked at MCC’s response
to the nine recommendations OIG made in October
2005 in Audit of the Millennium Challenge Corporation’s
Contract Award Process.




                                                                         SEMIANNUAL REPORT TO THE CONGRESS            9
               A

               P

               P

  REPORTING    E
REQUIREMENTS   N
               D
               I
               C
               E
               S

                    11
                    FINANCIAL AUDIT REPORTS ISSUED

                    April 1, 2007 through September 30, 2007


                                                                      Amount of     Type of
  Report Number   Date of Report          Report Title                 Findings     Findings




                                   NOTHING TO REPORT





Appendix A                                               SEMIANNUAL REPORT TO THE CONGRESS     13
                                  PERFORMANCE AUDIT REPORTS ISSUED 

                                   April 1, 2007 through September 30, 2007

                                                                                                          Amount of   Type of
     Report Number         Date of Report                           Report Title                           Findings   Findings
     M-000-07-002-P               07/26/07   Audit of the MCC’s Management of Its Conditions Precedent
                                             in Its Compact Agreements

     M-000-07-003-P               09/06/07   Audit of the MCC’s Contract Award Process

     M-000-07-004-P               09/28/07   Audit of the Millennium Challenge Corporation’s Compliance
                                             With the Provisions of the Federal Information Security
                                             Management Act for Fiscal Year 2007




       BU--Better Use of Funds

       QC--Questioned Costs

       UN--Unsupported Costs

       Note: UN is part of QC




14      SEMIANNUAL REPORT TO THE CONGRESS                                                                              Appendix A
                        MISCELLANEOUS AUDIT REPORTS ISSUED
                          April 1, 2007 through September 30, 2007
Fund Accountability Statement audit reports covering the agreement period of July 1 to December 31, 2006*

                            Date of                                                                         Amount of            Type of
  Report Number             Report                                Report Title                               Findings            Findings
    M-000-07-005-N          08/10/07        Audit of the MCC Resources Managed by Millennium                   $10,702              QC
                                            Challenge Account-Madagascar under the Compact                                          UN
                                            Agreement between the MCC and the Government of the
                                            Republic of Madagascar from July 1, 2006 to December 31,
                                            2006

    M-000-07-006-N          08/23/07        Audit of the MCC Resources Managed by MCA-Nicaragua
                                            under the Compact Agreement between the MCC and the
                                            Government of Nicaragua from July 1, 2006 to December
                                            31, 2006

    M-000-07-007-N          08/31/07        Audit of the Fund Accountability Statement of the                   $150                QC
                                            Millennium Challenge Corporation (MCC) Resources                                        UN
                                            Managed by the MCA-Benin Under the Compact
                                            Agreement dated February 22, 2006, between MCC and the
                                            Government of Benin for the period from July 1, 2006, to
                                            December 31, 2006

   M-000-07-008-N           09/10/07        Audit of the Millennium Challenge Corporation (MCC)
                                            Resources Managed by Millennium Challenge Account-
                                            Honduras (MCA-Honduras) Under the Compact
                                            Agreement Between the MCC and the Government of
                                            Honduras from July 1, 2006 to December 31, 2006

   M-000-07-009-N           09/27/07        Audit of the MCC Resources managed by the Millennium
                                            Challenge Georgia Fund, Under the Compact Agreement
                                            Between the MCC and the Government of Georgia for the
                                            period from July 1, 2006 to December 31, 2006

  *Note: Questioned costs outstanding at this time from the previous reporting period include an additional $6,617.24 for MCA Madagascar.




                                                                                                                  BU--Better Use of Funds

                                                                                                                  QC--Questioned Costs

                                                                                                                  UN--Unsupported Costs

                                                                                                                  Note: UN is part of QC




Appendix A                                                                                 SEMIANNUAL REPORT TO THE CONGRESS                 15
                     AUDIT REPORTS OVER SIX MONTHS OLD

                       WITH NO MANAGEMENT DECISION

                            As of September 30, 2007 

                                                                                                             Desired
                                                                                               Current       Decision
     Report                                                                     Date of    Recommendation     Target
     Number                               Report Title                          Report         Status          Date
  M-000-07-001-N   Audit of the Fund Accountability Statement of the MCC        12/21/06         1            12/07
                   Resources Managed by MCA-Madagascar under the Compact                         2            12/07
                   Agreement dated April 18, 2005 between MCC and the
                                                                                                 3            12/07
                   Government of the Republic of Madagascar for the period
                   from July 27, 2005 to June 30, 2006

  M-000-07-002-N   Audit of the Fund Accountability Statement of the MCC        01/11/07         1            01/08
                   Resources Managed by MCA-Cape Verde under the Compact                         2            01/08
                   Agreement dated July 4, 2005, between MCC and the
                   Government of the Republic of Cape Verde for the period
                   from October 17, 2005 to June 30, 2006

  M-000-07-003-N   Independent Auditor’s Report on the Financial Audit of the   02/07/07         1            02/08
                   MCC Resources Managed by Millennium Account-Honduras                          2            02/08
                   (MCA-Honduras), Under the Compact Agreement Between
                   the MCC and MCA-Honduras from Feb 22, 2006 - June 30,
                   2006

  M-000-07-004-N   Audit of the Fund Accountability Statement of the MCC        02/27/07         1            02/08
                   Resources Managed by Millennium Challenge Georgia Fund
                   (MCG), Under the Compact Agreement dated September 12,
                   2005, Between the MCC and the Government of Georgia for
                   the Period from April 7, 2006, to June 30, 2006




Appendix B                                                                       SEMIANNUAL REPORT TO THE CONGRESS      17
                        SIGNIFICANT AUDIT RECOMMENDATIONS

                         DESCRIBED IN PREVIOUS SEMIANNUAL

                           REPORTS WITHOUT FINAL ACTION 

                                As of September 30, 2007 

                                                                                                                       Final
                                                                                                                      Action
     Report                                                                     Rec.       Issue      Management      Target
     Number                            Subject of Report                        No.        Date       Decision Date    Date
  M-000-05-003-P       Audit of the Millennium Challenge Corporation’s           8        06/20/05        04/07       04/07*
                       Compliance with Provisions of the Federal
                       Information Security Management Act of 2002

  M-000-06-001-C       Audit of the Millennium Challenge Corporation’s          5.2       12/06/05       12/06/05     04/07*
                       Financial Statements, Internal Controls, and
                       Compliance for the Period Ending September 30,
                       2005 and the Nine Month Period Ending September
                       30, 2004

   M-000-06-001-S      Review of the Millennium Challenge Corporation’s          3        05/16/06       05/16/06     05/07*
                       Progress in Achieving Its Planned Organizational          4                       05/16/06     05/07*
                       Structure and Beginning Its Assistance Programs

  M-000-06-003-P       Audit of the MCC’s Compliance with the Provisions         1        09/29/06       09/29/06     09/07*
                       of the Federal Information Security Management Act
                       of 2002 for Fiscal Year 2006

  M-000-007-001-F      Audit of the MCC’s Financial Statements, Internal         3        11/14/06       01/18/07      01/08
                       Controls, and Compliance for the period ending           7.1                      01/18/07      01/08
                       September 30, 2006, and 2005

  M-000-07-001-P       Audit of the MCC’s Due Diligence Review Process           1        03/02/07       03/02/07      03/08
                       Leading to Compact Awards

  M-000-07-001-N       Audit of the Fund Accountability Statement of the        1A        12/21/06                    12/21/07
                       MCC Resources Managed by MCA-Madagascar                  1B                                    12/21/07
                       under the Compact Agreement Dated April 18, 2005
                                                                                 2                                    12/21/07
                       Between MCC and the Government of the Republic
                       of Madagascar for the Period from July 27, 2005 to        3                                    12/21/07
                       June 30, 2006

  M-000-07-002-N       Audit of the Fund Accountability Statement of the        1A        01/11/07                     01/08
                       MCC Resources Managed by MCA-Cape Verde under            1B                                     01/08
                       the Compact Agreement dated July 4, 2005, between
                                                                                 2                                     01/08
                       MCC and the Government of the Republic of Cape
                       Verde for the period from October 17, 2005 to June
                       30, 2006

  M-000-07-003-N       Independent Auditor’s Report on the Financial Audit       1        02/07/07                     02/08
                       of the MCC Resources Managed by Millennium                2                                     02/08
                       Account-Honduras (MCA-Honduras), Under the
                       Compact Agreement Between the MCC and MCA-
                       Honduras from Feb 22, 2006 - June 30, 2006
  M-000-07-004-N       Audit of the Fund Accountability Statement of the         1       02/27/2007                    02/08
                       MCC Resources Managed by Millennium Challenge
                       Georgia Fund (MCG), Under the Compact Agreement
                       dated September 12, 2005, Between the MCC and the
                       Government of Georgia for the Period from April 7,
                       2006, to June 30, 2006

  * As of September 30, 2007, MCC has not provided OIG a revised target date.

Appendix C                                                                             SEMIANNUAL REPORT TO THE CONGRESS         19
                             REPORTS ISSUED WITH QUESTIONED

                                  AND UNSUPPORTED COSTS

                             April 1, 2007 through September 30, 2007 

                                                                               Number
                                                                               of Audit           Questioned             Unsupported
                               Reports                                         Reports              Costs                  Costs*
 A. For which no management decision had been made as of                           2                $10,983                  $7,083
    April 1, 2007

 B. Add: Reports issued April 1, 2007 through September 30,                        2               $10,852**                   $0
    2007

     Subtotal                                                                      2                $21,835                  $7,083

 C. Less: Reports with a management decision made                                  0                   $0                      $0
    April 1, 2007 through September 30, 2007

      i. Value of recommendations disallowed by agency officials                   0                   $0                      $0

       ii. Value of recommendations allowed by agency officials                    0                   $0                      $0

 D. For which no management decision had been made as of                           0                $21,835                  $7,083
    September 30, 2007


  * 	 Unsupported costs are included in questioned costs, but are provided as additional information as required by the Inspector General Act
      Amendments of 1988 (P.L. 100-504).

  ** Questioned costs from Fund Accountability Statement Audits issued this period as follows:
     • 	 Madagascar – $10,702 in ineligible questioned costs
     • 	 Benin – $150 in ineligible questioned costs




Appendix D	                                                                                SEMIANNUAL REPORT TO THE CONGRESS                21
                REPORTS ISSUED WITH RECOMMENDATIONS

                   THAT FUNDS BE PUT TO BETTER USE

                   April 1, 2007 through September 30, 2007 

                                                              Number
                                                              of Audit
                               Reports                        Reports    Dollar Value




                                         NOTHING TO REPORT





22   SEMIANNUAL REPORT TO THE CONGRESS                                         Appendix D
                                Inspector General

                 HOTLINE
   OIG’s Hotline makes it easy to report allegations of fraud,
   waste, abuse, mismanagement or misconduct in programs
   and operations of the USAID, USADF, IAF, and MCC.
   Employees, contractors, program participants and the
   general public may report allegations directly by e-mail,
   telephone, or mail to:

   Phone                 	1-202-712-1023
                          1-800-230-6539


   E-mail 	 ig.hotline@usaid.gov



   Mail                  	USAID OIG HOTLINE
                         P.O. Box 657
                         Washington, DC 20044-0657


U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
          U.S.Agency for International Development 

                  Ofﬁce of Inspector General

                            for the

              Millennium Challenge Corporation 

                  1300 Pennsylvania Avenue, NW

                           Room 6.6D 

                     Washington, DC 20523

                      www.usaid.gov/oig




The Semiannual Report to the Congress is available on the Internet at 

           www.usaid.gov/oig/public/semiann/mcc1.htm

